SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
CPHILLIPS@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

+1 202 736 8270

September 17, 2019

By ECF and Email
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Winston-Salem Industries for the Blind
v. PDS Consultants, Inc., et al.
No. 19-329

Dear Mr. Harris:
Pursuant to rule 37.2 of the Rules of this Court, Counsel for petitioner Winston-Salem
Industries for the Blind consents to the filing of any amicus curiae brief in support of either party
or of neither party in connection with the above-captioned petition for certiorari.
Sincerely,

Carter G. Phillips
Counsel of Record
cc:

Noel J. Francisco, Solicitor General
David S. Gallacher

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

ACTIVE 248894753

